Nos. 20-512, 20-520
IN THE

bupretue Court of the Zillutteb iptateo
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,

Petitioner,
SHAWNE ALSTON, ET AL.,

Respondents.

AMERICAN ATHLETIC CONFERENCE, ET AL.,

Petitioners,
V.

SHAWNE ALSTON, ET AL.,

Respondents.

On Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

Brief of Amieus Curiae
The Committee to Support the Antitrust Laws
Supporting Respondents and Affirmance
Joseph Goldberg
Freedman Boyd Hollander
Goldberg Urias & Ward P.A.
20 First Plaza, Suite 700
Albuquerque, NM 87102
(505) 244-7520

Robert S. Kitchenoff

Counsel of Record
Weinstein Kitchenoff & Asher LLC
150 Monument Rd, Suite 107
Bala Cynwyd, PA 19004
(215) 545-7200
kitchenoff@wka-law.com

Counsel for Amicus Curiae
The Committee to Support the Antitrust Laws
March 10, 2021
BATEMAN & SLADE, INC.

STONEHAM, MASSACHUSETTS

Table of Contents.
Table of Authorities.

ii

Interest of the Amici Curiae.

1

Summary of the Argument.

2

Argument

4
Relevant Background.

4

The NCAA Is Not a Joint
Venture.

11

The Rule of Reason Is WellSuited for Analyzing Joint
Venture Activity.

15

The Outcomes of the Alston and
O'Bannon Cases Provide RealWorld Demonstrations of the
Necessity of Traditional Rule of
Reason Analysis.

20

Conclusion.

25

Table of Authorities.
CASES:
Agnew v. NCAA,
683 F.3d 328 (7th Cir. 2012)

13

Am. Needle, Inc. v. Nat'l Football League,
560 U.S. 183 (2010)
16, 17, 18, 19
Arizona v. Maricopa Cnty. Med. Soc.,
457 U.S. 332 (1982)

15

Broadcast Music, Inc. v. Columbia Broadcasting
System, Inc., 441 U.S. 1 (1979)
18, 19, 20
California v. Am. Stores Co.,
495 U.S. 271 (1990)

1

Continental TV., Inc. v. GTE Sylvania Inc.,
,433 U.S. 36 (1977)
Copperweld Corp. v. Indep. Tube Corp.,
467 U.S. 752 (1984)

16, 17, 18

Illinois Brick Co. v. Illinois,
431 U.S. 720 (1977)
In re NCAA Student Athlete Name & Likeness
Licensing Litig.,
990 F. Supp. 2d 996 (N.D. Cal. 2013)
Leegin. Creative Leather Products, Inc. v.
PSKS, Inc., 551 U.S. 877 (2007)

ii

17

1

14
17, 18

Major League Baseball Properties, Inc. v. Salvino,
Inc., 542 F.3d 290 (2d Cir. 2008)
16, 18
Mitsubishi Motors Corp. v. Soler Chrysler-Plymouth,
Inc., 473 U.S. 614 (1985)
1
N Am. Soccer League, LLC v. United States Soccer
Fed'n, Inc., 883 F.3d 32 (2d Cir. 2018)
6
NCAA v. Board of Regents of Univ. of Oklahoma,
468 U.S. 85 (1984)
11-12, 13, 15, 16
Nw. Wholesale Stationers, Inc. v. Pac. Stationery
& Printing Co., 472 U.S. 284 (1985)
18
O'Bannon v. NCAA,
7 F. Supp. 3d 955 (N.D. Cal. 2014)
O'Bannon v. NCAA,
802 F.3d 1049 (9th Cir. 2015)
Ohio v. Am. Express Co.,
138 S. Ct. 2274 (2018)
Polygram Holding v. F.T.C.,
416 F.3d 29 (D.C. Cir. 2005)

21
passim
6, 17
19

Rothery Storage & Van Co. v. Atlas Van Lines, Inc.,
792 F.2d 210 (D.C. Cir. 1986)
19
SCFC ILC, Inc. v. Visa USA, Inc.,
36 F.3d 958 (10th Cir. 1994)

iii

19

Texaco Inc. v. Dagher,
547 U.S. 1 (2006)

13, 14, 19

U.S. v. Topco Associates, Inc.,
405 U.S. 596 (1972)

1

STATUTES:
15 U.S.0 § 1

passim

OTHER AUTHORITIES:
NCAA, What is the NCAA?
https://tinyurl.com/ljd8xmlk (last
visited Mar. 8, 2021)

4

Phillip E. Areeda & Herbert Hovenkamp,
ANTITRUST LAW: AN ANALYSIS OF
ANTITRUST PRINCIPLES AND THEIR
APPLICATION ¶ 2100a (5th ed. 2020)

16

Athnet, Build It and They Will Come. The
Value of Athletic Facilities In
Attracting Top Athletes,
https://tinyurl.com/ytce8qj5 (last visited
Mar. 8, 2021)

13

Kenny Dorset, Oregon Football Shows Off
Amazing New Football Performance
Center, BLEACHER REPORT, July 31,
2013

iv

13-14

Cork Gaines, Clemson's $55 Million Football
Complex Shows How Swanky College
Football Facilities Have Become for the
Top Programs, BUSINESS INSIDER, Jan.
8, 2019

13

Sam McKewon, Nebraska Partners with
Opendorse to Create the `first-ever'
Name, Image and Likeness Program,
OMAHA WORLD-HERALD (Mar. 10, 2020)

22

NCAA, Questions and Answers on Name,
Image and Likeness (Jan. 2021)

22

NCAA, Finances of Intercollegiate Athletics,
https://tinyurl.com/yhfduhcl (last
visited Mar. 8, 2021)

12

Patrick Rishe, Thank You, Phil Knight:
Oregon's New $68 Million Recruiting
Tool, FORBES, AUG. 3, 2013

13

Clemsen Tigers, Allen N Reeves Football
Complex, https://tinyurl.com/y734mxvn
(last visited Mar. 8, 2021)

13

U.S. Senator Chris Murphy, Madness, Inc.
How everyone is getting rich off college
sports — except the players, Mar. 28,
2019

5

Andy Wittry, An Analysis of College Football
Recruiting Costs, ATHLETIC DIRECTOR U

14

Interest of the Amici Curiae.
"Antitrust laws in general, and the Sherman
Act in particular, are the Magna Carta of free
enterprise. They are as important to the preservation
of economic freedom and our free-enterprise system
as the Bill of Rights is to the protection of our
fundamental personal freedoms." U.S. v. Topco
Associates, Inc., 405 U.S. 596, 610 (1972). The
Committee to Support the Antitrust Laws (COSAL) is
an independent, nonprofit corporation devoted to
preventing,
remediating,
and
deterring
anticompetitive conduct through the enactment,
preservation, and enforcement of a strong body of
antitrust laws. See https://cosal.org (last visited Mar.
8, 2021). COSAL is governed by its Board of Directors,
which elects officers, who supervise and control its
day-to-day operations.'
The Supreme Court has long recognized the
key role private litigants play in enforcing federal
antitrust laws. See, e.g., Mitsubishi Motors Corp. v.
Soler Chrysler-Plymouth, Inc., 473 U.S. 614, 635
(1985) ("Without doubt, the private cause of action
plays a central role in enforcing this regime.");
California v. Am. Stores Co., 495 U.S. 271, 284 (1990)
(describing private enforcement as "an integral part
of the congressional plan for protecting competition");
Illinois Brick Co. v. Illinois, 431 U.S. 720, 745 (1977)
1 Pursuant to Rule 37.6, COSAL affirms that no counsel
for a party authored this brief in whole or in part, and no person
other than COSAL and its counsel made a monetary
contribution intended to fund its preparation or submission. All
parties have consented to the filing of this brief. In addition, no
COSAL member whose firm is counsel for a party had any
involvement in the organization's decision to file this amicus
brief.

1

(recognizing "the longstanding policy of encouraging
vigorous private enforcement of the antitrust laws").
The federal government cannot prosecute every
violation of federal antitrust laws. Nor has the federal
government traditionally seen its role as
compensative of the victims of antitrust violations.
Private enforcement fills these significant gaps,
which is even more true in the case of rule of reason
violations, where federal regulators have
traditionally been less active.
The positions advanced by the NCAA and
various amid could curtail private enforcement by
granting new antitrust immunities to joint venture
activity in ways foreclosed by this Court's precedent.
The fact intensive rule of reason framework that the
Sherman Act demands has been applied successfully
to the conduct of the NCAA in a number of cases
without problem. Despite the NCAA's consistent
protestations that the sky would fall because of prior
decisions finding that the NCAA's conduct violated
the Sherman Act, those decisions have not unraveled
the fabric of college athletics. The markets in question
are more vibrant for both consumer and athlete. But
if the NCAA succeeds here in rewriting the antitrust
laws to immunize its conduct, the potential fallout
could reach beyond the student athletics markets at
issue and have a chilling effect on private
enforcement whenever a joint venture (or a putative
joint venture) is implicated. COSAL thus has a
substantial interest in the resolution of this case.
Summary of the Argument.
The NCAA has had multiple opportunities to
present evidence that its naked restraints of trade on
compensation to college athletes are reasonably

2

necessary to maintain "amateurism"—the NCAA's
conjured up term for what it claims differentiates
college sports from professional sports. Having
repeatedly failed to make that showing, the NCAA
now argues that, as a professed joint venture, it
should receive "abbreviated deferential review"
rather than full rule of reason scrutiny. The NCAA
argues that restraints "reasonably related" to
defining "a joint venture's distinct product are
procompetitive because they enable a product to exist
that would otherwise be unavailable, and hence
should be upheld against antitrust challenge without
detailed rule-of-reason analysis." NCAA Br. at 2425. 2 This request could grant sweeping antitrust
immunity for joint venture conduct that is not
supported by any precedent. It is nothing more than
a last-ditch effort by the NCAA to rewrite the
antitrust laws to afford it immunity for any restraint
of trade that it can tangentially relate to its everevolving definition of amateurism.
The NCAA's request goes too far. As an initial
matter, the NCAA is itself not even a joint venture.
The NCAA did not even attempt to establish this
factual predicate in the district court and so,
unsurprisingly, neither the district's nor circuit
court's lengthy opinions even mention that term.
There is no reason for this Court to weigh in on joint
venture activity writ large, particularly where this
Court and lower courts around the country have
faithfully and correctly applied the rule of reason to
joint ventures for decades. This standard establishes
a flexible framework for review of joint venture
activity that allows for the continuation of
2 Citations to "NCAA Br." are to the NCAA's Opening
Brief in Case No. 20-512 (filed Feb. 1, 2021).

3

procompetitive joint ventures while striking down
those that harm competition. In fact, the proper
application of the rule of reason to the NCAA in the
Alston case, as well as in the predecessor O'Bannon
litigation, illustrates exactly why a routine rule of
reason inquiry—and not the truncated and
deferential "review" concocted by the NCAA—is the
appropriate mode of analysis here. Put simply, since
the NCAA cannot win on the field, it now wants to
change the rules of play.
The NCAA's request to rewrite the Sherman
Act to immunize its anticompetitive conduct is a job
for Congress, not the courts. Moreover, allowing the
NCAA (or any actual joint venture) to evade full rule
of reason analysis would have the likely effect of
blessing anticompetitive activity well beyond the
college athletics markets at issue in this case. This
Court should affirm.
Argument.
I.

Relevant Background.

The NCAA is the main body that coordinates
and regulates collegiate level athletics; it is comprised
of 1,098 member colleges and universities, which are
organized into 102 athletic conferences and 3
Divisions.
NCAA,
What is the NCAAg
https://tinyurl.com/ljd8xmlk (last visited Mar. 8,
2021). The NCAA has implemented regulations which
not only dictate the contours of athletic competition
among member schools, but also severely curtail the
compensation that college athletes may receive. Pet.
App. at 69a.3 But this is not because the athletes are
3 Citations to "Pet. App." are to the Appendix to the.
NCAA's Petition for Writ of Certiorari in Case No. 20-512 (filed

4

not generating sufficient revenues. Each year, "[t]he
NCAA [itself] generates approximately one billion
dollars," a number which is only a fraction of the
billions of dollars of revenue that are generated for
their universities, athletic conferences, and related
institutions. Id. at 68a. Revenues continue to rise
sharply as the NCAA and its member schools engage
in more commercial activity, including broadcast
contracts, corporate sponsorships, ticket sales,
apparel deals, and merchandise sales.4
In 2014, a group of college athletes brought suit
against the NCAA, challenging rules that: "(1) cap at
the cost of attendance grants-in-aid they may receive
for their athletic services, and (2) limit the additional
compensation and benefits that they can receive in
addition to a grant-in-aid athletic scholarship, which
have a monetary value above the cost of attendance."
Id. at 127a. The college athletes claimed that in the
absence of these rules, they would receive more
compensation in exchange for their athletic services.
Ibid.
In order to successfully establish a claim under
Section 1 of the Sherman Act, the college athletes
were required to show "1) that there was a contract,
combination, or conspiracy; 2) that the agreement
Oct. 15, 2020), which contains the Ninth Circuit Court of
Appeals opinion (pp. la-64a), the District Court's Findings of
Fact and Conclusions of Law (pp. 65a- 165a), and the District
Court's Permanent Injunction (pp. 167a-170a).
4 U.S. Senator Chris Murphy, Madness, Inc. How
everyone is getting rich off college sports — except the players,
Mar. 28, 2019, at 3, https://www.murphy.senate.gov/
newsroom/press-releases/murphy-releases-madness-inc-reportcalls-on-ncaa-to-compensate-student-athletes (last visited Mar.
8, 2021).

5

unreasonably restrained trade under either a per se
rule of illegality or a rule of reason analysis; and 3)
that the restraint affected interstate commerce." Id.
at 127 (citation omitted). The district court
determined that the rule of reason standard applied
to the challenged conduct, noting that although
"horizontal price-fixing among competitors is usually
a per-se violation of anti-trust law, because a certain
degree of cooperation is necessary to market athletics
competition," the rule of reason standard was
appropriate in this case. Id. at 75a (cleaned up);
O'Bannon v. NCAA, 802 F.3d 1049, 1069 (9th Cir.
2015).
The rule of reason is a rigorous, burdenshifting analysis traditionally involving multiple
steps:
Under this framework, the plaintiff has
the initial burden to prove that the
challenged restraint has a substantial
anticompetitive effect that harms
consumers in the relevant market. If the
plaintiff carries its burden, then the
burden shifts to the defendant to show a
procompetitive rationale for the
restraint. If the defendant makes this
showing, then the burden shifts back to
the plaintiff to demonstrate that the
procompetitive efficiencies could be
reasonably achieved through less
anticompetitive means.
Ohio v. Am. Express Co., 138 S. Ct. 2274, 2284 (2018).
No one factor is necessarily determinative. N Am.
Soccer League, LLC v. United States Soccer Fed'n,
Inc., 883 F.3d 32, 42 (2d Cir. 2018) (internal citations
omitted).
6

Consistent with this Court's precedent, the
district court properly applied this multi-step
framework:
(1) student-athletes bear the initial
burden of showing that the restraint
produces significant anticompetitive
effects within a relevant market; (2) if
they carry that burden, the NCAA must
come forward with evidence of the
restraint's procompetitive effects; and (3)
student-athletes must then show that
any legitimate objectives can be
achieved in a substantially less
restrictive manner.
Pet. App. at 33a (cleaned up); see also O'Bannon, 802
F. 3d at 1070.
At the first step of the rule of reason analysis,
the district court granted summary judgment in favor
of the college athletes, finding there were "significant
anticompetitive effects in the relevant market." Pet.
App. at 17a. In making its finding, the court
considered the full factual record presented by both
the NCAA and the student-athlete plaintiffs. That
factual record showed, among other things, "that
schools, as buyers of athletic services, exercise
monopsony power to artificially cap compensation at
a level that is not commensurate with studentathletes' value and that but for the challenged
restraints, schools would offer recruits compensation
that more closely correlates with their talent." Ibid.
(cleaned up, internal citations omitted).5 The court
5 The district court cited to testimony that the Power
Five (the largest conferences in Division I) were urging the

7

emphasized that the value that college athletes create
is "reflected in the extraordinary revenues that the
[NCAA] derive[s] from these sports." Id. at 82a.
Turning to step two of the rule of reason
analysis, the court examined the factual record
presented by the NCAA in support of its
procompetitive justifications that the challenged
restrictions were tied to amateurism, which the
NCAA argued promoted consumer interest as
"consumers value amateurism." Id. at 83a. Carefully
analyzing the factual record, the district court
acknowledged the justification as a means to limit
non-education related cash compensation to college
athletes, but held that the NCAA had not made a
factual showing that amateurism justified limiting
non-cash compensation for education-related benefits.
The court found "(i) the challenged rules do not
follow any coherent definition of amateurism or even
pay, and (ii) these payments have not diminished
demand for college sports, which remains exceedingly
popular and revenue-producing." Id. at 19a (cleaned
up). In particular, the court found that in 2015,
student compensation rules were adjusted to allow for
additional college athlete compensation and
consumer demand was not negatively impacted. Id. at
95a. The court emphasized that limits on "non-cash
education-related benefits," such as post-eligibility
graduate scholarships or tutoring "could not be
confused with a professional athlete's salary" but
NCAA to ease compensation regulations as schools were
seemingly allowed to pay for anything, "including palatial
athletic facilities and seven-figure coaches' salaries," except for
financial support for college athletes; this concern highlighted
the court's view that college athletes would receive higher
compensation if not for the NCAA's restrictions. Pet. App. at 17a.
8

rather would "emphasize that the recipients are
students." Id. at 109a. The court concluded that the
NCAA did not show that the challenged rules were
procompetitive. Id. at 115a.
At the third step of the rule of reason analysis,
the college athletes proposed three potential
alternatives to the challenged restraint as "less
restrictive but virtually as effective in preventing
`demand-reducing
unlimited
compensation
indistinguishable from that observed in professional
sports."' Id. at 22a. Out of the proposed alternatives,
the court rejected the two alternatives that offered the
NCAA the least flexibility, and accepted the one that
provided the NCAA with the most latitude that the
Sherman Act could tolerate:
(1) allowing the NCAA to continue to
limit grants-in-aid at not less than the
Cost of Attendance; (2) allowing the
NCAA to continue to limit compensation
and benefits unrelated to education; and
(3) enjoining NCAA limits on most
compensation and benefits that are
related to education, but allowing it to
limit education-related academic or
graduation awards and incentives, as
long as the limits are not lower than its
limits on athletic performance awards
now or in the future.
Id. at 118a (cleaned up). This least restrictive
alternative was then implemented by the court via
permanent injunction. Id. at 167a.
The NCAA appealed the lower court's decision.
The circuit court found that the district court
9

"properly applied the [r]ule of [r]eason in determining
that the enjoined rules are unlawful restraints of
trade under section 1 of the Sherman Act, 15 U.S.C.
§ 1." Id. at 7a. Under review, the circuit court held
that the district court properly found in favor of the
college athletes at the first step of the rule of reason
analysis, affirming the district court's finding that the
NCAA's rules have "significant anticompetitive
effects in the relevant market for student-athletes'
labor." Id. at 34a (cleaned up).
Turning to the second step of the rule of reason
analysis, the circuit court noted that the NCAA
advanced a single procompetitive justification: that
"the challenged rules preserve amateurism, which, in
turn, widens consumer choice by maintaining a
distinction between college and professional sports."
Ibid. (cleaned up). The circuit court also
acknowledged that the district court credited the
"importance to consumer demand of maintaining a
distinction between college and professional sports,"
but ultimately concluded that "only some of the
challenged rules serve a procompetitive purpose" and
that those "restricting non-cash education-related
benefits do nothing to foster or preserve demand
because the value of such benefits, like a scholarship
for post-eligibility graduate school tuition, is
inherently limited to its actual value, and could not
be confused with a professional athlete's salary." Id.
at 37a (cleaned up, emphasis in original). The circuit
court held that the district court "reasonably relied on
demand analyses, survey evidence, and NCAA
testimony indicating that caps on non-cash,
education-related benefits have no demandpreserving effect and, therefore, lack a procompetitive
justification." Id. at 36a.

10

At the rule of reason's third step, the circuit
court affirmed the district court's acceptance of a less
restrictive alternative. Ibid. The circuit court
reasonably concluded that "uncapping certain
education-related benefits would preserve consumer
demand for college athletics just as well as the
challenged rules" as they are "easily distinguishable
from professional salaries" and "their value is
inherently limited to their actual costs and they can
be provided in kind, not in cash." Id. at 41a-42a.
At no point during either the district court or
the circuit court's thorough analyses of the record
under the multi-pronged, fact-intensive rule of reason
framework was the NCAA characterized as a joint
venture. Nor is there anything in the record
demonstrating that the NCAA ever seriously
attempted to establish the factual predicates for such
a conclusion.
II.

The NCAA Is Not a Joint Venture.

Much of the NCAA's and its amicis arguments
assume and depend on the NCAA's selfcharacterization as a joint venture. See, e.g., NCAA
Br. at 17 ("This Court applied these principles to the
NCAA in Board of Regents, explaining that the NCAA
(a joint venture) acts procompetitively by offering the
`product' of college sports that is different from
professional sports because the participants are not
only students but also amateurs, i.e., not paid to
play."). But nothing in the record before this Court
supports that notion. Neither the district court, with
the benefit of a weeks-long trial and extensive factual
record, nor the circuit court, ever mention the term
"joint venture" in their decisions. This Court, despite
the NCAA's misleading characterization of the Board

11

of Regents decision, has never found the NCAA to be
a joint venture—indeed, while the NCAA argued in
Board of Regents that it was operating as a
procompetitive joint venture, this Court explicitly
rejected that argument. NCAA v. Board of Regents of
Univ. of Oklahoma, 468 U.S. 85, 86 (1984) ("The
record does not support the NCAA's proffered
justification for its television plan that it constitutes
a cooperative 'joint venture' which assists in the
marketing of broadcast rights and hence is
procompetitive.).
In its brief, the NCAA does not even attempt to
make a predicate showing of its status as a joint
venture. It simply assumes that this Court will accept
its ipse dixit assertion. But an examination of the
NCAA's structure refutes that characterization.
Each of the NCAA's thousands of member
schools is an independent entity, with its own
president, athletic director, coaches, and recruiting
staff, and each with its own incentive to maximize
revenues. The ability to generate revenues is
substantial; by the NCAA's own numbers, in 2019,
athletics departments generated $10.6 billion in
revenue (in addition to another $8.3 billion provided
by institutional sources). NCAA, Finances of
Intercollegiate Athletics, https://tinyurl.comiyhfduhcl
(last visited Mar. 8, 2021).
To maintain successful athletic programs and
achieve greater and greater athletic revenues, NCAA
member schools engage as horizontal competitors
with one another to attract elite college athletes. This
competition is vigorous, as the best college athletes
provide the best opportunity for the member schools
to maximize their own revenues. In their competitive
12

quest to attract the best student athletes, schools
expend sizable sums of money. Board of Regents, 468
U.S. at 99; Agnew v. NCAA, 683 F.3d 328, 340 (7th
Cir. 2012). This vigorous competition among its
member institutions illustrates why the NCAA is not
a joint venture. Compare Texaco Inc. v. Dagher, 547
U.S. 1, 5 (2006) (Texaco and Shell did not compete
with one another in the relevant market and so were
not involved in a horizontal price-fixing agreement).
Tellingly, though, the massive revenues derived from
this fierce competition for student athletes' labor are
not won by the students themselves, but
predominately diverted into over-the-top amenityfilled training facilities6 and coaching salaries that

6 Collegiate athletics have engaged in a competitive
building boom for over-the-top athletic facilities, which are used
to recruit college athletes. In February 2017, Clemson
University finished a $55 million dollar complex for its football
players which included, amongst other things, a miniature golf
course, sand volleyball courts, laser tag, a movie theatre, bowling
lanes, a barber shop, a slide to get from the second floor of the
facility to the practice field, a covered full-size outdoor basketball
court, a shoeshine area, and a nap room. See Athnet, Build It

and They Will Come. The Value of Athletic Facilities In
Attracting Top Athletes, https://tinyurl.com/ytce8qj5 (last
visited Mar. 8, 2021); see also Clemsen Tigers, Allen N Reeves
Football Complex, https://tinyurl.com/y734mxvn (last visited
Mar. 8, 2021); Cork Gaines, Clemson's $55 Million Football
Complex Shows How Swanky College Football Facilities Have
Become for the Top Programs, BUSINESS INSIDER, Jan. 8, 2019,

https://tinyurl.com/ypr9fvsz. Likewise, University of Oregon
spent a reported $68 million dollars on a "Football Performance
Center" which included a barber shop, a television wall with
sixty-four 55-inch screens, a player lounge with pool tables and
gaming stations, and a dining room that reminds players to "eat
your enemies." See Patrick Rishe, Thank You, Phil Knight:
Oregon's New $68 Million Recruiting Tool, FORBES, AUG. 3, 2013,
https://tinyurl.com/3qu81y5u; see also Kenny Dorset, Oregon
13

rival or exceed those of professional coaches. In re
NCAA Student Athlete Name & Likeness Licensing
Litig., 990 F. Supp. 2d 996, 1004 (N.D. Cal. 2013); see
also O'Bannon, 802 F.3d at 1056, 1070. In 2019, the
University of Georgia became the first school to
surpass $3 million dollars in annual college football
recruiting expenses alone—an increase from the
$2.62 million dollars expended by the same program
in 2018. This elevated spending on recruiting is not
an isolated occurrence-38 of the 52 Power Five
schools also surpassed their recruiting expenditures
in 2019, on average spending $103,478 more than the
previous year's recruiting cycle .7
Further, as the district court found, each sport
in which NCAA member institutions compete is a
separate labor market, such that men's FBS football,
men's Division I basketball, and women's Division I
basketball are all separate national labor markets. It
follows that there are dozens of different labor
markets in which the NCAA and its member
institutions operate. Thus, the NCAA is not an
"economically integrated joint venture," as in Dagher,
it is composed of hundreds of financially independent
academic institutions, dispersed around the country,
with different athletic offerings, in different NCAA
divisions, and with differing economic motivations.
Those academic institutions do not pool capital, share
the risks of loss, or demonstrate any other
characteristics of a traditional joint venture. See
Football Shows Off Amazing New Football Performance Center,
BLEACHER REPORT, July 31, 2013, https://tinyurl.com/3tyfphg8.
7 Andy Wittry, An Analysis of College Football
Recruiting Costs, ATHLETIC DIRECTOR U, https://www.
athleticdirectoru.com/articles/an-analysis-of-football-recruitingcosts.

14

Arizona v. Maricopa Cnty. Med. Soc., 457 U.S. 332,
356 (1982).
Given the NCAA's member institutions' status
as active horizontal competitors, operating in dozens
of disparate labor markets and with little to no
economic integration, the NCAA cannot and should
not be characterized as a joint venture under this
Court's precedents. As such, this case has no
relevance to joint ventures more broadly.
III. The Rule of Reason Is Well-Suited for
Analyzing Joint Venture Activity.
Putting aside the fact that the NCAA is not a
joint venture, the NCAA has argued that a joint
venture's restraint of trade, if characterized as
reasonably necessary to defining the product offered,
should not be subject to rule of reason analysis. NCAA
Br. at 17. Instead, defying decades of precedent to the
contrary, including this Court's decision in Board of
Regents, the NCAA argues for a new mode of analysis
offering it wide deference to restrain competition as it
sees fit. Ibid. But the rule of reason, which has been
the default analysis under the Sherman Act for a
hundred years, is the appropriate method for
analyzing joint venture conduct, providing sufficient
flexibility for the task. This is all the more true when
the NCAA's proposed mode of analysis (which is really
a request for antitrust immunity) amounts to
dismissal on the pleadings whenever a joint venture
contends—without
actually proving—that
its
restraint of trade is reasonably necessary to provide a
product or service.
Joint ventures are business arrangements in
which "two or more firms agree to cooperate in
producing some input that they would otherwise have
15

produced individually, acquired on the market, or
perhaps would have done without." Phillip E. Areeda
& Herbert Hovenkamp, ANTITRUST LAW: AN ANALYSIS
OF ANTITRUST PRINCIPLES AND THEIR APPLICATION
2100a (5th ed. 2020). Joint ventures "hold the promise
of increasing a firm's efficiency and enabling it to
compete more effectively." Copperweld Corp. v. Indep.
Tube Corp., 467 U.S. 752, 768 (1984). But joint
ventures also amount to concerted activity that is
inherently fraught with anticompetitive risk; joint
ventures "deprivefl the marketplace of the
independent centers of decisionmaking that
competition assumes and demands." Id. at 768-69.
Joint ventures thus lie at the intersection of what
Congress sought to regulate in the Sherman Act and
they are not immune from antitrust scrutiny. Id. at
775. This Court "has repeatedly found" violations of
Section 1 of the Sherman Act where a "legally single
entity" like the NCAA allowed for restraints of trade
among "a group of competitors and served, in essence,
as a vehicle for ongoing concerted activity." Am.
Needle, Inc. v. Nat'l Football League, 560 U.S. 183,
196 (2010); Board of Regents, 468 U.S. at 113.
A traditional rule of reason analysis is the
appropriate approach for analyzing such complex and
real-world business arrangements to determine
whether a particular joint venture has unreasonably
combined "independent centers of decisionmaking."
Am. Needle, 560 U.S. at 196; Major League Baseball
Properties, Inc. v. Salvino, Inc., 542 F.3d 290, 338 (2d
Cir. 2008) ("In short, to protect the efficiencyenhancing potential of joint ventures and
cooperatives, the rule of reason is the favored method
of analysis for these ventures, preventing courts from
intervening before a full market analysis is
completed.") (Sotomayer, J., concurring). At its heart,
16

the rule of reason is an inquiry into "competitive
reality" and "a functional consideration of how the
parties involved in the alleged anticompetitive
conduct actually operate." Am. Needle, 560 U.S. at
191, 196. "The rule of reason requires courts to
conduct a fact-specific assessment of 'market power
and market structure . . . to assess the [restraint]'s
actual effect' on competition." Am. Express;, 138 S. Ct.
at 2284 (quoting Copperweld, 467 U.S. at 768). "The
ultimate goal is to distinguish between restraints
with anticompetitive effect that are harmful to the
consumer and restraints stimulating competition that
are in the consumer's best interest." Id. at 2284
(quoting Leegin Creative Leather Products, Inc. v.
PSKS, Inc., 551 U.S. 877, 886 (2007)) (cleaned up).
Over the last forty years, joint ventures have
been repeatedly and successfully analyzed under a
traditional rule of reason analysis, which involves "an
inquiry into market power and market structure
designed to assess the combination's actual effect."
Copperweld, 467 U.S. at 768. The rule of reason is a
versatile tool that provides courts with a large degree
of flexibility. Am. Needle, 560 U.S. at 203. Its burdenshifting structure allows courts to, where appropriate,
deeply explore "all of the circumstances of a case in
deciding whether a restrictive practice should be
prohibited as imposing an unreasonable restraint on
competition." Leegin, 551 U.S. at 885 (quoting
Continental T. V, Inc. v. GTE Sylvania Inc., 433 U.S.
36, 49 (1977)). The rule of reason also allows courts to
account for market power and market structure; the
nature, history, and impact of the alleged restraint;
and other specific information regarding the alleged
restraint and the business environment in which it
occurs in order to "assess the combination's actual

17

effect." Leegin, 552 U.S. at 886; Copperweld, 467 U.S.
at 768.
This Court has described the reason why a
traditional rule of reason is the appropriate manner
to analyze joint ventures: it places substance over
form. Am. Needle, 560 U.S. at 195 ("substance, not
form, should determine whether an entity is capable
of conspiring under § 1") (quoting Copperweld, 467
U.S. at 773)) (cleaned up); Broadcast Music, Inc. v.
Columbia Broadcasting System, Inc., 441 U.S. 1, 23
(1979). The traditional rule of reason analysis shields
procompetitive joint ventures, and reveals unlawful
horizontal restraints of trade, for instance where the
facts show conduct to "evade the antitrust laws simply
by creating a 'joint venture' to serve as the exclusive
seller of their competing products." Salvino, 542 F.3d
at 335.
The breadth of facially suspicious joint venture
restraints that courts have analyzed for potential
anticompetitive effects under the traditional rule of
reason analysis demonstrates its practicality and
utility. To allow for this substance over form inquiry,
the Court has rejected per se treatment for many joint
ventures. Nw. Wholesale Stationers, Inc. v. Pac.
Stationery & Printing Co., 472 U.S. 284 (1985). But in
the same way that a per se analysis for restraints of
trade imposed by joint ventures could chill
procompetitive conduct, the NCAA's proposed
replacement for the rule of reason (which effectively
presumes legality without any inquiry into market
realities) would harm competition. The NCAA's
proposed framework would inoculate certain market
actors from any inquiry into the substance of their
restraints of trade—predicated almost entirely on
their chosen organizational form.
18

The utility of the traditional rule of reason
analysis is confirmed by the recognition that the test
is not outcome-determinative. Rather, the rule of
reason analysis enables courts to neutrally examine
the details of a particular joint venture to achieve an
appropriate result. This Court's application of the
rule of reason to joint ventures has reached results
finding no violation of the Sherman Act, Broadcast
Music, 441 U.S. at 23-25; Daghei; 547 U.S. at 5, as
well as violations of the Sherman Act, Am. Needle,
560 U.S. at 203-04.
The same goes for circuit court opinions. See,
e.g., Rothery Storage & Van Co. v. Atlas Van Lines,
Inc., 792 F.2d 210 (D.C. Cir. 1986) (upholding van
line's "group boycott" despite anticompetitive effects
where that van line lacked market power, the
restrictions were ancillary, and the joint venture
promoted efficacy by preventing free riding); SCFC
ILC, Inc. v. Visa USA, Inc., 36 F.3d 958 (10th Cir.
1994) (upholding Visa USA bylaw excluding from
membership competing Sears Discover Card
consortium where restraint did not "alter the
character of the general purpose credit card market
or change any present pattern of distribution" and
there was no evidence of consumer harm); Polygram
Holding v. F.T.C., 416 F.3d 29 (D.C. Cir. 2005),
(combination of two record companies to refrain from
advertising or discounting competing Three Tenor
albums near in time to release of a third, jointlybacked album, properly halted by FTC where record
companies failed to identify sufficient competitive
justifications).
Rather than allowing courts to apply this
flexible analysis to joint ventures, which are on their
face combinations with competitive consequences, the
19

NCAA seeks "abbreviated deferential review" that
would preclude a fact-based analysis, essentially
providing any joint venture immunity where the
restraint is—according to the joint venture
participants—necessary to create the joint venture's
product or service. NCAA Br. at 21. But the very
purpose of the rule of reason is to determine on the
facts whether the challenged restraint is actually
necessary and reasonably tailored to the
procompetitive benefits provided. Broadcast Music,
441 U.S. at 23. To make that assessment based on
legal formalities and the joint venture's selfinterested characterization, without undertaking any
factual analysis into market realities, would go
against decades of jurisprudence and could result in
sweeping new antitrust immunities.
IV. The Outcomes of the Alston and O'Bannon
Cases Provide Real-World Demonstrations of
the Necessity of Traditional Rule of Reason
Analysis.
Fortunately, this Court has real world evidence
of how the NCAA's proposed deferential standard of
review would result in anticompetitive conduct
escaping antitrust liability. The NCAA's rules on
compensation to college athletes, which constitute a
naked restraint of trade among horizontal
competitors, have now been subjected to two trials, in
both O'Bannon and Alston. In O'Bannon, the court
examined the NCAA's restraints as to compensation
for college athletes' name, image, and likeness rights.
There, the district court heard from 23 witnesses,
reviewed 287 admitted trial exhibits, and received
economic evidence concerning the alleged
procompetitive aspects of the NCAA's restraint as
well as the anticompetitive impact. Weighing all of
20

this evidence in an exhaustive 99-page opinion, and
applying the rule of reason's burden-shifting
framework to the evidence provided by both sides, the
district court accepted in part the NCAA's proffered
procompetitive justifications for the challenged
restraint, but nonetheless found that Plaintiffs'
proposed less restrictive alternative of allowing
member schools to offer cost of attendance stipends
from revenues earned through exploitation of college
athletes' name, image, and likeness rights "would
limit the anticompetitive effects of the NCAA's
current restraint without impeding the NCAA's
efforts to achieve its stated purpose." O'Bannon v.
NCAA, 7 F. Supp. 3d 955, 982 (N.D. Cal. 2014). The
court's decision was grounded in testimony from the
NCAA's own witnesses. Ibid.
The circuit court upheld that portion of the
district court's opinion. O'Bannon, 802 F.3d at 1074
(holding district court did not clearly err in finding
that allowing for cost of attendance payments would
be a substantially less restrictive alternative). The
circuit court otherwise agreed with the NCAA that
restraints on cash payments for name, image, and
likeness rights were appropriately tethered to the
NCAA's procompetitive justifications. The NCAA was
not railroaded by a rogue district court. The NCAA
presented its evidence, its arguments were adopted in
part by both the district court and, to a greater extent,
the circuit court, and it succeeded in preserving a
large part of its restraint of trade.
In seeking certiorari in the O'Bannon case, the
NCAA claimed that the modest injunction entered by
the district court and upheld by the circuit court
would fundamentally alter the landscape of college
sports and jeopardize the sacred tradition of
21

"amateurism." This Court declined review in 2016,
and in the intervening time, the NCAA has fully
reversed course on its opposition to allowing college
athletes to share in name, image, and likeness
revenues; in fact, in April 2020, the NCAA Board of
Governors approved a plan to allow for college
athletes to receive endorsements and other marketing
opportunities, rights far beyond those granted in
O'Bannon.8 Some schools are even creating programs
to assist college athletes in marketing their name,
image, and likeness rights, using those opportunities
as a recruitment too1.9 Thus, the very restraint that
the NCAA claimed was necessary to preserve
amateurism in O'Bannon—ensuring that college
athletes received $0 for their name, image, and
likeness rights—has now been jettisoned just a few
short years later, demonstrating exactly how
unnecessary it was for the product to exist. This Court
must ask itself how it can be possible that a restraint
that was absolutely necessary for the product of
college sports to exist at all in 2016 could become
completely unnecessary for the product to exist by
early 2020, and more broadly, why the entity that
made that outlandish claim should now be rewarded
with immunity from the antitrust laws.
Four years later, over the course of the ten-day
trial in Alston, the trial court again reviewed an
8 NCAA, Questions and Answers on Name, Image and
Likeness (Jan. 2021), https://www.ncaa.org/questions-andanswers-name-image-and-likeness (last visited Mar. 8, 2021).
9 Sam McKewon, Nebraska Partners with Opendorse to
Create the 'first-ever' Name, Image and Likeness Program,
OMAHA WORLD-HERALD (Mar. 10, 2020), https://omaha.
com/sports/college/huskers/teams/nebraska-partners-withop e ndorse-to-cre ate-the-first-ever-name-image-and-likene ssp ro gram/article_d4034f73-b de5-50b 7-9cc9-02f25955914b.html.

22

extensive record, with evidence and testimony offered
by student athletes, NCAA lay witnesses, and
economists for both sides. The district court again
weighed all of the evidence and issued a lengthy,
hundred plus page, well-reasoned opinion based on
the record in front of her. The district court found that,
while the challenged restraints (that differed from
those in O'Bannon) had some limited procompetitive
benefits, the plaintiffs had demonstrated a
substantially less restrictive alternative that would
achieve the same procompetitive benefits, with
virtually the same effectiveness as the NCAA's overly
restrictive limits on compensation. The court's
balanced decision was, again, grounded in testimony
from the NCAA's own witnesses. Pet. App. at 156a.
And the circuit court again affirmed.
Following the fact intensive traditional rule of
reason analysis, the NCAA has largely been
successful in maintaining its system of "amateurism."
The decision in Alston simply authorizes additional,
modest education-related benefits while allowing the
NCAA to continue ensuring that college athletes do
not become professional, paid athletes. The factintensive, balancing analysis employed by the district
court worked exactly as it should have.
The NCAA has not come to this Court to argue
that the evidence is wrong. It does not dispute a single
factual finding made by the Alston court. Instead,
having lost on the facts and on the law, the NCAA is
pounding the table. It asks this Court to disrupt a
century of settled precedent on the rule of reason and
decades of its application to joint ventures. The NCAA
seeks to rewrite the rule of reason analysis to
accommodate its own inability to fashion rules for
intercollegiate athletics that do not violate this
23

country's antitrust laws. What the NCAA seeks is
blanket antitrust immunity for its conduct—and
apparently the conduct of any entity calling itself a
joint venture—based solely on an assertion (in this
case disproven) that the product it provides can exist
only under the specific restraints it deems necessary.
NCAA Br. at 29. The results in both O'Bannon and
Alston provide a real-world demonstration that the
rule of reason is alive, well, and functioning exactly as
it should. And as the governing body of collegiate
athletic competitions, the irony of seeking to change
longstanding rules of play not because they are unfair,
but simply because it cannot win on the field, should
not be lost on the NCAA.
In both O'Bannon and Alston, the trial court
had access to a fully developed factual record, with the
benefit of expert analysis from economists on both
sides. In both cases, upon examination of the
restraints and their competitive effects, the trial court
appropriately found that the NCAA's rules on
compensation were more restrictive than necessary to
maintain amateurism in college sports, siding in some
instances with the plaintiffs, and in some instances
with the NCAA. The circuit court, twice, did the same.
But if the NCAA was granted deference or immunity
at the beginning of the litigation, as the NCAA seeks,
the lower courts would not have had the opportunity
to look at the anticompetitive nature of the restraints,
analyze the factual record, and actually find that the
restraints were anticompetitive. Having done that
analysis, in two separate instances, it is now clear
that the NCAA's rules on compensation are, in fact,
anticompetitive on balance. This shows that the
NCAA's proposed limited mode of analysis is
antithetical to the fundamental purpose of this
country's antitrust laws. As the circuit court correctly
24

noted, "[t]he NCAA is not above the antitrust laws,
and courts cannot and must not shy away from
requiring the NCAA to play by the Sherman Act's
rules." O'Bannon, 802 F.3d at 1079. The NCAA's
inability or unwillingness to craft rules that comply
with the Sherman Act is no basis for overturning
decades of precedent.
V.

Conclusion.

The judgment of the Court of Appeals should
be affirmed.
Respectfully submitted,
ROBERT S. KITCHENOFF
Counsel of Record
WEINSTEIN KITCHENOFF & ASHER LLC
150 Monument Rd, Suite 107
Bala Cynwyd, PA 19004
(215) 545-7200
kitchenoff@wka-law.com
JOSEPH GOLDBERG
FREEDMAN BOYD HOLLANDER
GOLDBERG URIAS & WARD P.A.
20 First Plaza, Suite 700
Albuquerque, NM 87102
(505) 244-7520
Counsel for Amicus Curiae The Committee to
Support the Antitrust Laws
Dated: March 10, 2021

25

